Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the Avondale Police Department Arizona
GR-90-01-009
July 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Avondale Arizona Police Department (APD).  The purpose of the grants is to enhance community policing.  The APD was awarded a total of $1,084,448 to hire 13 new police officers and redeploy the equivalent of 4.4 existing full-time police officers from administrative duties to community policing. 

We reviewed the APD's compliance with seven essential grant conditions. We found the grantee's budgeting, hiring, retention, redeployment and community policing activities to be acceptable.  However, we found weaknesses in areas of local matching funds and reimbursement requests. As a result of the deficiencies identified below, we questioned $51,051 in grant funds received. 1

The APD did not meet its local match requirement for the UHP grant.

	The APD reimbursement requests for the UHP grant contained unallowable costs.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 





Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.